                                                               1701 Duke Street, Suite 500, Alexandria, VA 22314PH:
                                                               703.931.5600, FX: 703.931.3655, www.kearneyco.com




                                     MANAGEMENT LETTER
                                        AUD-FM-14-11

To the Chief Financial Officer and Inspector General of the U.S. Department of State:

Kearney & Company, P.C. (referred to as “we” hereafter), has audited the consolidated financial
statements of the U.S. Department of State (Department) as of and for the year ended
September 30, 2013, and has issued our report thereon dated December 12, 2013. 1 In planning
and performing our audit of the Department’s consolidated financial statements, we considered
the Department’s internal control over financial reporting and the Department’s compliance
with certain provisions of laws, regulations, contracts, and grant agreements. Our auditing
procedures were designed for the purpose of expressing an opinion on the consolidated financial
statements and not to provide assurances on internal control or compliance. Accordingly, we do
not express an opinion on the effectiveness of the Department’s internal control over financial
reporting or on the Department’s compliance with certain provisions of laws, regulations
contracts, and grant agreements.

During our audit, we noted certain matters related to internal control over financial reporting that
we considered to be significant deficiencies and certain matters relating to compliance that we
considered to be reportable under auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. These
items are not repeated in this letter, as they are explained in detail in our report on the
Department’s FY 2013 financial statements.

Our procedures were designed primarily to enable us to form an opinion on the Department’s
consolidated financial statements and therefore may not have identified all internal control
weaknesses and instances of noncompliance that may exist. Although not considered to be
material weaknesses, significant deficiencies, or reportable instances of noncompliance, we
noted certain other matters involving internal control, operations, and compliance. These
findings and recommendations, which are summarized in Appendix A, are intended to assist the
Department in strengthening internal controls and improving operating efficiencies.

We appreciate the courteous and professional assistance provided by Department personnel
during our audit. These findings and recommendations have been discussed with appropriate
Department officials. Department management did not have formal comments on this letter.



1
 Independent Auditor’s Report on the U. S. Department of State 2013 and 2012 Financial Statements (AUD-FM-
14-10, Dec. 2013).


                                                     1
This letter is intended solely for the information and use of Department management, those
charged with governance, and others within the Department and the Office of Inspector General
and is not intended to be and should not be used by anyone other than these specified parties.




Alexandria, Virginia
April 2, 2014




                                               2
                                                                                         Appendix A

                         MANAGEMENT LETTER COMMENTS
COMMENTS REPEATED FROM PRIOR YEAR

During the audit of the U.S. Department of State’s (Department) FY 2012 financial statements,
Kearney & Company, P.C. (referred to as “we” hereafter) identified matters that were reported in
an internal control report 1 and a management letter. 2 The severity of issues reported in the FY
2012 internal control report related to Foreign Service National (FSN) after-employment benefits
had decreased and the two open issues related to this area are included in the management letter
rather than the FY 2013 report on internal control. Four issues from the FY 2012 management
letter remained open and were updated with information obtained during the audit of the
Department’s FY 2013 financial statements.

I.       Foreign Service National After-Employment Benefits

Inaccurate Personnel Data for Foreign Service National Employees

The Department’s workforce includes Civil Service, Foreign Service, and FSN employees.
FSN employees are generally paid in local currency, and their salary and benefits are based on
local prevailing practice, which is documented in each post’s local compensation plan.
Human resource information for FSNs, such as date hired, transfers, grade increases, and date
of separation, is maintained in the Department’s WebPass application. When a personnel
action is initiated for an FSN, the post enters the information into WebPass. The FSN
personnel information is then submitted to a Global Financial Service Center (GFSC) where
officials manually enter the information into the FSN Payroll (FSNPay) application or the
Global Foreign Affairs Compensation System (GFACS). 3

We assessed the completeness of employee information in WebPass, FSNPay, and GFACS
for all overseas posts that provide voluntary severance or supplemental lump sum after-
employment benefits. We used automated audit techniques to compare the total number of
employees and the names of individuals in WebPass, FSNPay, and GFACS. We found that
22,388 employees were included in both WebPass and the applicable payroll application.
However, we also found

     •   248 individuals in WebPass that were not in FSNPay or GFACS.
     •   280 individuals in FSNPay or GFACS that were not in WebPass.


1
  Independent Auditor’s Report on the U.S. Department of State 2012 and 2011 Financial Statements (AUD/FM-13-
08, Nov. 2012).
2
  Management Letter Related to the Audit of the U.S. Department of State FY 2012 Financial Statements (AUD/FM-
13-09, Mar. 2013).
3
  The Department began implementing GFACS in FY 2013. The Department intends to convert all posts
from FSNPay to GFACS by June 2015.

                                                      1
                                                                                 Appendix A

For the 22,388 FSN employees included in both systems, we performed additional testing
to identify data inconsistencies related to the date of birth, service computation date, and
annual salary, and we found

   •   843 instances in which an employee’s date of birth was not consistent.
   •   2,644 instances in which an employee’s service computation date was not consistent.
   •   2,662 instances in which an employee’s annual salary was not consistent.

The Department tested a judgmental sample of the discrepancies we noted and reported that
WebPass contained more accurate information on employees’ dates of birth and service
computation dates and FSNPay or GFACS contained more accurate salary information. We
re-performed the Department’s testing and confirmed its conclusions regarding the most
accurate sources of FSN employee information.

We found that posts were processing personnel actions inconsistently. In certain instances,
posts were not notifying the responsible GFSC in a timely manner about personnel actions
that had been processed. Additionally, we noted instances where data submitted to the
responsible GFSC was not updated in the applicable payroll application to reflect changes
made in WebPass. We also found instances where approved personnel actions were not
accurately entered into the applicable payroll application once the information was provided
to the GFSC due to data entry error. The Department did not have a control in place to
ensure that all post-approved personnel actions included in WebPass were also entered into
either FSNPay or GFACS, such as a process to regularly reconcile the data between the
applications.

Without accurate and complete FSN personnel data, the Department may not be able to
efficiently or accurately calculate its annual liability for after-employment benefits. The
Department was able to adjust its liability estimation methodology to address the
discrepancies identified during our testing through manual manipulation of data in either
FSNPay or GFACS and WebPass. These manual calculations required additional time and
effort and were more prone to inaccuracies.

In addition, the risk of improper payments exists if personnel actions are not processed
properly or timely or when payroll and benefit payments are calculated based on inaccurate
data. The lack of reconciliation between the payroll applications and WebPass may result in
errors and inconsistencies remaining undetected and uncorrected for long periods of time.

This issue was initially reported in our FY 2012 report on internal control.




                                                 2
                                                                               Appendix A

Recommendation:

We recommend that the Department

   •   Standardize requirements for processing personnel actions at posts, including the
       establishment of deadlines for submitting information to the responsible Global Financial
       Service Center.
   •   Validate the employee data populated in the Global Foreign Affairs Compensation
       System for each post (to include date of birth and service computation dates) as the
       system is implemented across the remaining posts.
   •   Periodically perform reconciliations between WebPass and the payroll applications to
       identify data discrepancies.
   •   Refine the process used to calculate the Foreign Service National after-employment
       liability estimate based on the results of any data remediation or validation efforts.

Insufficient Controls over Foreign Service National After-Employment Benefits

The Department provides some FSN employees with after-employment benefits through a
variety of arrangements, including annuity-based defined benefit retirement plans, defined
contribution retirement plans, lump-sum retirement payments, and separation benefits to FSNs
who voluntarily resign or otherwise leave the workplace. The Department estimates liabilities
relating to FSN after-employment benefits for financial reporting purposes.

We found that during FY 2013 the Department completed several corrective actions related to
FSN after-employment benefits, which reduced the risk of significant misstatements in the
financial statements. Specifically, the Department took additional steps to confirm the nature of
several posts’ benefit plans and refined its estimation and reporting processes. However, the
Department continued to lack formalized processes and controls relating to FSN after-
employment benefits. In addition, the Department lacked a centralized inventory of benefit plans
as well as controls to ensure that any newly established or updated benefit plans are approved
and inventoried. During our audit, we also identified several items that the Department did not
include in its liability calculation.

The corrective actions taken by the Department in FY 2013 were executed real time as we
worked with the Department to ensure that the most significant risks and issues noted during our
prior audits were addressed. Additional steps are needed to fully implement routine and
repeatable processes and controls relating to FSN after-employment benefits.

The lack of formalized, routine processes to inventory, monitor, and account for FSN benefit
plans may lead to future funding and financial reporting challenges. Benefits may exist and not
be reflected in the Department's financial statements, while the nuances of other benefit plans
may be misinterpreted in the Department's estimation models and assumptions. Budgeting and
financial planning decisions may be made without a complete understanding of the short and


                                                3
                                                                                         Appendix A

long-term obligations relating to FSN benefit plans. In addition, we estimated that the FSN
after-employment liability was understated by $24.1 million.

This issue was initially reported in our FY 2011 report on internal control.

Recommendation:

We recommend that the Department

      •   Continue to confirm and validate its inventory of Foreign Service National after-
          employment benefits.
      •   Update its estimation techniques and supporting data as benefit plans and plan
          stipulations are confirmed.
      •   Document and formalize its processes to inventory and account for Foreign Service
          National after-employment benefits.

II.       General Issue

Untimely Responses to Audit Requests

As part of the financial statement audit, we made requests for data and documentation to validate
and substantiate account balances and transactions that support the Department’s financial
statements. In general, the data we requested should have been an integral component of the
Department’s internal control structure and therefore should have been readily available.

The Department did not always provide documentation in a timely manner. As of December 7,
2013, we had issued 815 audit requests with due dates prior to December 6, 2013. Of the total
requests, four responses had not been received by December 7, 2013. Table 1 provides an
overall summary of the response times for the 811 items that had been received.

Table 1. Response Times for Audit Requests
                                           Received 1          Received          Received        Received
               Total Items    Received
                                            Week or         Between 1 and 2   Between 2 and 3   More Than 3
               Received as     by Due
                                           Less After       Weeks After Due    Weeks After      Weeks After
               of 12/7/2013    Date*
                                           Due Date*            Date*           Due Date*        Due Date*
 Audit
                   811          520           166                 45                26              54
 Requests
 Percent           100           64            20                 6                  3               7
*We considered one week to be five business days.

For comparative purposes, in FY 2012, the Department provided 68 percent of audit requests on
time, and 17 percent of items were provided 1 week or less after the due date, which was fairly
consistent with the response times for FY 2013.



                                                        4
                                                                                   Appendix A

We found that delays in providing documentation were caused by a number of factors. For
instance, we noted that the Department sometimes had difficulties in obtaining information in a
timely manner from overseas posts or other organizations. Additionally, the Department’s
records management practices were not standardized to properly store and maintain information
for management review.

The inability to produce documentation supporting financial transactions can lengthen processing
times for analyses and reconciliations, as well as increases the possibility of undetected errors.
Delays in providing accurate financial information can lengthen financial reporting cycle times,
which decreases the relevance of financial information to end users. Providing timely and
accurate information to the financial statement auditors could potentially lead to cost savings in
performing the audit.

This issue was initially reported in our FY 2010 management letter.

Recommendation:

We recommend that the Department

       •   Enhance its procedures to ensure that information is provided to the financial statement
           auditor in a timely manner.
       •   Ensure that standards for records management and retention are in place and are
           enforced.

III.       Fund Balance with Treasury

Insufficient Fund Balance with Treasury Reconciliation Process

Agencies are required to promptly reconcile Fund Balance with Treasury (FBWT) information in
order to identify and resolve differences between the agency financial records and the
Department of the Treasury (Treasury) fund balances. The Department maintains two cash
reconciliation reports: the Global Financial Services-Charleston Cash Reconciliation Report and
the Financial Reporting Analysis (FRA) Cash Reconciliation Report. These reports document
final balances for each Treasury Account Fund Symbol for the applicable accounting period.
Because of the disaggregated nature of the Department’s operations, the FBWT reconciliation
process involves the reconciliation of disbursements and collections processed both domestically
and overseas as well as through third parties.

A suspense account is a temporary account used by agencies to record transactions with
discrepancies until a determination is made on the proper disposition of the transaction. For
instance, the Department will record unreconciled differences identified during the FBWT
reconciliation process in a suspense account until the discrepancies are resolved. Treasury allows
entities with a justifiable business need to submit a request to use suspense accounts, which are
only to be used as a temporary holding place for transactions that must be cleared within 60 days.
The Department received a waiver from Treasury for continued use of its suspense accounts.
                                                  5
                                                                                Appendix A


We obtained and reviewed the FRA Cash Reconciliation Report as of June 30, 2013, and
identified 141 instances in which a variance existed between Treasury and Department fund
balances. These variances amounted to a net difference of approximately $6.5 million. However,
when the absolute value of all variances was considered, the variance totaled approximately
$72.9 million.

We also found that the Department had balances in several suspense accounts that had not been
researched and resolved within 60 days as required. Specifically, we identified six suspense
accounts in which the balance remained unchanged during FY 2013.

The Department reconciled disbursements and collections at the transaction level monthly;
however, the Department did not have a threshold to investigate and resolve variances either in
absolute or relative terms. In addition, the Department did not have a complete history of
transactions that it could compare with Treasury information, as data from previous financial
systems were not available to the staff performing the reconciliations. These data restrictions
continued to prevent the Department from fully reconciling the FBWT account. The Department
also did not have appropriate controls in place to ensure all suspense activity was researched and
resolved within the required 60 days.

Failure to implement timely and effective reconciliation processes could

   •   Increase the risk of fraud, waste, and mismanagement of funds.
   •   Affect the Government’s ability to effectively monitor budget execution.
   •   Affect the Department’s ability to accurately measure the full cost of its programs.
   •   Result in violations of the Antideficiency Act.
   •   Result in erroneous financial statements.

Because the Department performed its reconciliation based on net value rather than absolute
value, the Department could significantly understate the total outstanding FBWT variance. In
addition, by not resolving suspense account activity within the required 60 days, the Department
was not in compliance with Treasury requirements.

This issue was initially reported in our FY 2009 management letter.

Recommendation:

We recommend that the Department enhance its Fund Balance with Treasury (FBWT)
reconciliation process by

   •   Identifying older reconciling items and taking the appropriate actions to clear these items.
   •   Standardizing its internal reconciliation policy to require consideration over the absolute
       and relative value of variances including the application of a percentage threshold for
       investigating variances at individual fund levels rather than at the FBWT level.
   •   Researching and resolving all balances in suspense accounts within 60 days.
                                                 6
                                                                                  Appendix A


IV.       Payroll

Inadequate Control Over Personnel Records and Actions

The Department has almost 30,000 full-time employees located domestically and overseas,
including Civil Service, Foreign Service, and FSN staff. Civil Service and Foreign Service
employees are paid according to standard Federal Government pay scales using the Consolidated
American Payroll Processing System (CAPPS). FSN employees are paid using the FSN Payroll
system.

Ensuring the sufficiency of controls over personnel-related activities is a key responsibility of
managers. We identified control deficiencies related to maintaining personnel records,
processing personnel actions and calculating benefits, and processing employee separations.

This issue was initially reported in our FY 2009 management letter.

Insufficient, Inconsistent, or Incorrect Personnel Record Documentation

The Office of Personnel Management requires agencies, including the Department, to maintain
up-to-date, complete, and correct personnel records for each employee. These personnel folders
should include all benefit election forms, as well as any elections resulting in deductions to an
employee's pay. In addition, the Department is required to review time and attendance
submissions for accuracy. Maintaining up-to-date personnel folders and reviewing time and
attendance submissions for accuracy helps ensure that employees are compensated only for
actual hours worked and benefits earned.

To verify the accuracy of Civil Service and Foreign Service employee salaries and benefits, we
assessed the completeness of personnel records for a sample of 78 employees. We found the
following discrepancies during our testing:

      •   Twenty-two employee timesheets were not provided.
      •   One employee timesheet was not approved.
      •   Nine Request for Leave or Approved Absence Forms (Standard Form [SF]-71) were not
          provided.
      •   One SF-71 was not approved.
      •   Twelve Federal Employees’ Group Life Insurance (FEGLI) Election Forms (SF-2817)
          were not provided.
      •   Three FEGLI elections selected on the SF-2817 did not match the election on the
          employee's Notification of Personnel Action Forms (SF-50).
      •   Five Thrift Savings Plan elections selected on the Thrift Savings Plan Election Form
          (TSP-001) did not match the election on the employee's Earnings and Leave Statement
          (ELS).
      •   Four health benefits elections selected on the Health Benefit Election Form (SF-2809) did
          not match the election on the employee's ELS.
                                                   7
                                                                                Appendix A


As part of our contractual agreement with OIG, we chose an additional 35 employees for testing
to assist the Office of Personnel Management in its financial statement audit. We found the
following discrepancies during our testing:

   •   Two FEGLI elections on the SF-2817 did not match the elections on the SF-50.
   •   One health benefits election selected on the SF-2809 did not match the election on the
       employee's ELS.

The Department did not sufficiently oversee and review the documentation maintained in
personnel files and time and attendance (T&A) reports. Poor administrative control over the
payroll cycle and lack of sufficient and updated supporting documentation in the Official
Personnel File may lead to errors in employee pay, improper benefit elections, or increased
benefit costs. Incomplete personnel records prevent the timely receipt of sufficient and accurate
documentation when requested and hinder the prompt identification and remediation of errors.

Improper and Untimely Processing of Personnel Actions

The Department processes personnel actions when an employee is hired by the Department or an
existing employee has a change in personnel status. These personnel actions are documented
either on the SF-50 or on the Joint Form (JF) 62A (Personal Services Contracting Action).

We selected a sample of 78 payroll disbursements, 45 separated employee personnel actions, and
45 new hire personnel actions from CAPPS. We also selected a sample of 100 payroll
disbursements, 35 separated employee personnel actions, and 50 new hire personnel actions from
FSN Payroll to test controls over T&A, personnel actions, hiring, and separations. We did not
test payroll disbursements made from GFACS because only three posts were being paid using
GFACS at the time of testing. For each of the sample items selected, we reviewed the SF-50 or
JF-62A for proper and timely approvals.

During our testing of the CAPPS transactions, we found that

   •   Four of 78 personnel actions in our payroll disbursement sample were not approved in the
       pay period following the effective date on the personnel action.
   •   Five of 45 personnel actions in our separated employee sample were not approved in the
       pay period following the effective date on the personnel action.

During our testing of the FSN Payroll transactions, we found that 16 of 100 personnel actions in
our payroll disbursement sample were not approved in the pay period following the effective
date on the personnel action.

Each bureau and post had been delegated the authority to approve personnel actions and enter the
information into the personnel systems. We found that bureaus and posts were processing
personnel actions inconsistently. The Department did not have a centralized process to ensure

                                                8
                                                                                 Appendix A

that bureaus and posts were approving employee actions and entering the information into the
personnel system in a timely manner.

Although we did not note any instances of improper payment in our testing, the potential for
improper payments exists if personnel actions are not processed properly or timely. In addition,
the lack of proper oversight of personnel actions may result in errors remaining undetected and
uncorrected for long periods of time. Untimely personnel actions are often processed
retroactively, leading to supplemental payments being processed manually and increasing the
risk of human error and decreasing efficiency.

Recommendation:

We recommend that the Department strengthen controls over personnel records and actions.
Specifically, the Department should

     •   Increase accountability for employees processing personnel actions at the bureaus and
         posts.
     •   Develop a process to conduct periodic reviews over personnel records.
     •   Institute mandatory training sessions on controls over personnel records for employees
         who process personnel actions.
     •   Develop centralized monitoring procedures that will ensure bureaus and posts are
         complying with policies for timely and appropriately approving personnel actions,
         including periodic reviews of documentation.

V.       Revenue

Inadequate Controls Over Machine Readable Visa Fee Analysis

The Bureau of Consular Affairs (CA) is responsible for issuing non-immigrant visas, referred to
as Machine Readable Visas (MRV), to foreign nationals at 270 embassies and consulates. CA
encourages posts to collect the MRV fees offsite to limit the Department’s cash collection
responsibilities. Posts must maintain proper internal controls to ensure that the offsite locations
properly execute their duties on behalf of the Department by collecting fees when issuing MRV
fee receipts and remitting all fees collected to the Department. To achieve this objective, CA
directs each post to perform, at least weekly, an MRV fee analysis by comparing the fees
collected with the number and type of services provided, as identified by records other than the
fee receipts. The MRV fee analysis should ensure the cumulative amount of fees collected by
the offsite location meets or exceeds the cumulative number of MRV applications processed by
the post. The collections made at offsite locations directly affect revenue reported by the
Department.

We assessed the operating effectiveness of the weekly MRV fee analysis at eight posts and noted
exceptions at seven of eight posts. These eight posts included sites visited during the FY 2013
financial statement audits and sites we identified as having exceptions during the FY 2012

                                                 9
                                                                                  Appendix A

financial statement audit. Specifically, at Embassy Madrid, Mission Germany, Mission India,
Mission Japan, Embassy Lima, Embassy Lisbon, and Mission Thailand a cumulative deficit was
identified, which occurs when the cumulative number of fees collected is less than the
cumulative number of visa applications processed. For example, we found that Mission
Germany had 17 weeks of cumulative deficits and Mission Japan had 16 weeks of cumulative
deficits, although the deficits were addressed by June 30, 2013. One of eight posts tested,
Mission India, had a cumulative deficit as of June 30, 2013.

Although seven of eight posts tested had a cumulative deficit during FY 2013, it was not possible
for us to fully analyze the operating effectiveness of the fee analysis because CA requested posts
to eliminate any cumulative balances at the beginning of FY 2013. As a result, we could not
assess the actual, long-term cumulative balances at posts.

In response to our FY 2011 finding related to MRV fee reconciliations, during FY 2012 CA
implemented the use of a SharePoint site that allowed CA to review completed MRV Fee
Analysis Worksheets from each post. During FY 2013, CA took additional steps to standardize
the reconciliation process, including requesting each post to eliminate all cumulative balances at
the beginning of FY 2013 to ensure consistency.

Although CA may have been monitoring and investigating deficit balances at posts, any review
that was being performed was not documented and was not effective as evidenced by the long
periods that some posts reported cumulative deficits. In addition, some post officials stated that
deficits were not always investigated quickly because of a belief that the deficit would clear itself
in time.

Without proper controls, cash collected at offsite locations could be misappropriated and not
deposited in the Department’s accounts. In addition, the Department may not be able to detect
inaccuracies in recording MRV fee collections.

This issue was initially reported in our FY 2011 management letter.

Recommendation:

We recommend that the Department

   •   Continue monitoring the Machine Readable Visa (MRV) fee analyses prepared by posts.
   •   Ensure that cumulative deficit balances are not eliminated from the MRV reconciliation
       process.
   •   Update the design of the centralized controls over the MRV fee reconciliation to evidence
       the monitoring and investigation of cumulative deficits.
   •   Develop and implement a requirement to formally assess and document the cause of
       cumulative deficits that remain after a certain period of time.



                                                 10
                                                                                 Appendix A

NEWLY IDENTIFIED COMMENTS

During the audit of the Department’s FY 2013 financial statements, some additional matters
came to our attention that had not been reported in the FY 2012 internal control report or
management letter.

I.     Property, Plant, and Equipment

Insufficient Process to Account for Improvements to Domestic Leased Property

The Department capitalizes significant improvements to its overseas leased facilities that exceed
$1 million. The costs of the significant improvements are captured in the Construction-in-
Progress account during the design and construction stage and upon completion are transferred to
the Leasehold Improvement account. The Department also leases or otherwise occupies dozens
of domestic properties through varying types of agreements with the General Services
Administration (GSA). In the event that the Department funds a renovation or improvement to
these leased facilities, a Reimbursable Work Authorization is established with GSA to transfer
funding for the cost of the requested improvement project.

We reviewed domestic expense transactions as of June 30, 2013, and found six disbursements to
GSA relating to renovation and improvement projects. Through review of the Reimbursable
Work Authorizations, we found that the Department had requested and was responsible for the
full cost of these improvements. The costs relating to these projects were recorded as expenses,
rather than as Construction-in-Progress or Leasehold Improvements depending upon the status of
the project.

Improvements to domestic leased facilities are infrequent in nature compared to improvements
made to overseas leased property. The Department did not have a process to determine whether
domestic leasehold improvements should be capitalized.

Without a process to determine whether improvements to domestic facilities should be
capitalized, property may be understated and operating expenses may be overstated on the
Department's financial statements. The specific transactions identified during the audit related to
two domestic leasehold improvement projects and amounted to approximately $25 million for
FY 2013.

Recommendation:

We recommend that the Department establish a process to assess significant improvements to
domestic leased facilities for capitalization.




                                                11
                                                                                  Appendix A

Inaccurate Accounting for Capital Leases

Capital leases are leases that transfer substantially all of the benefits and risks of ownership to
the lessee. Of the 9,700 real property leases used by the Department overseas, only 28 leases
were capitalized in the Department’s FY 2013 financial statements. During the audit, we tested
all 28 reported capital leases to ensure that the leases were correctly accounted for. We
identified exceptions with the valuation of 17 of 28 capital leases. For example, we found that

   •   The acquisition cost of 13 leases was not recorded correctly.
   •   The lease liability reported for 15 leases was not correct.
   •   The depreciation expense and accumulated depreciation for 14 leases was incorrect.
   •   Four leases were recorded in the wrong fiscal year.

The Bureau of the Comptroller and Global Financial Services, which calculates the accounting
information that will be reported in the financial statements for capital leases, did not receive
copies of all lease agreements, amendments, and renewals timely, and was therefore unable to
ensure the accuracy of the recorded lease amounts. In addition, the process to calculate the
capital lease information to include in the financial statements is manual and the Department did
not have a process in place to sufficiently review the calculations. As a result, the Department’s
FY 2013 financial statements were misstated by more than $6 million.

Recommendation:

We recommend that the Department refine the process for accounting for capital leases.
Specifically, the Department should

   •   Develop and implement a process for the Bureau of the Comptroller and Global Financial
       Services to obtain the documentation needed to account for capital leases in a timely
       manner.
   •   Improve training to emphasize capital lease accounting requirements.
   •   Develop and implement a process to review the capital lease amounts calculated for
       inclusion in the financial statements.

Inaccurate Recording of Software Costs

Federal agencies use various types of software, such as applications for operating a program or
administrative applications. Internal use software (IUS) is software that is purchased from
commercial vendors, internally developed, or developed by a contractor solely to meet the
agency’s operational needs. IUS that is in the development phase is considered software-in-
development (SID). When the cost of IUS exceeds the capitalization threshold, agencies are
required to report IUS as general property.

During our audit, we performed testing to assess whether the Department was accurately
identifying, reporting, and valuing IUS and SID in its annual financial statements. We found

                                                 12
                                                                                Appendix A

numerous instances where the Department did not accurately record IUS and SID. For example,
we found that

      •   Amounts recorded did not always agree with supporting documentation.
      •   Projects were not always transferred in a timely manner from SID to IUS.
      •   Some costs associated with SID were unrecorded.
      •   One project was transferred from SID to IUS that was not complete.

For SID and IUS, Department managers did not enter accounting information into the
Department’s accounting system as transactions occurred. Instead, the Department’s method for
tracking and recording software costs that should be capitalized was based on a quarterly manual
data call process. The effectiveness of the process relied on the responsiveness and
understanding of individual project owners. Insufficient guidance was provided to the project
owners to understand how to properly account for the costs associated with the IUS and SID
projects. In addition, the Department did not have a process to ensure that the information
provided by the project owners was accurate or complete. Further, the Department’s process to
review the status of projects that were nearing completion did not always ensure that the projects
were correctly transferred from SID to IUS.

As a result of the control deficiencies related to SID and IUS, the Department’s financial
statements were misstated. Specifically, the SID balance was overstated by approximately $2.1
million, and the IUS balance was overstated by approximately $8.9 million.

Recommendation:

We recommend that the Department improve its processes for tracking and recording software
costs. Specifically, the Department should

      •   Automate the process for accounting for software-related costs.
      •   Develop and implement a process to ensure software-in-development and internal use
          software listings are complete.
      •   Improve monitoring activities for projects nearing substantial completion to ensure the
          projects are transferred to the internal use software account in a timely manner.
      •   Improve training on the criteria for capitalized costs for project owners.
      •   Develop and implement a process to review information submitted by the project owners
          to ensure the information is accurate.

II.       Asbestos Liability

Inaccurate Supporting Data for the Asbestos Remediation Estimate

Asbestos is a mineral-based material that was widely used worldwide in construction during the
19th and early 20th century due to its affordability and resistance to fire, heat, and electrical
damage. The Department owns buildings that were constructed when the use of asbestos in

                                                 13
                                                                                Appendix A

various building materials was common. Due to health concerns, many countries have now
prohibited the use of asbestos in building materials. For operational and safety purposes, the
Department's Bureau of Overseas Buildings Operations (OBO) periodically assesses overseas
facilities to identify those with asbestos containing building materials (ACBM). The
assessments are performed by specialized engineers and include sampling building materials that
are suspected to contain asbestos. Each sampled material is analyzed by a laboratory to confirm
whether or not the material contains asbestos. Upon completion of this analysis, the results for
each post are recorded in OBO's Facilities Environmental Tracking System (FACETS).

Beginning in FY 2013, Federal agencies were required to report on their financial statements an
estimate of cleanup costs for asbestos-related materials. The Department used data from
FACETS as the starting point for the Department's asbestos remediation estimate. We
performed steps to assess the validity of FACETS data for 84 overseas buildings. We were
unable to confirm the physical existence of some ACBMs reported in FACETS at 27 of 84
buildings tested, as shown in Table 2.

                     Table 2. Exceptions Identified with FACETS Data
                                                               Number of
                                             Number of
                             Post                             Buildings with
                                           Buildings Tested
                                                               Exceptions
                           Bangkok                30                 7
                            Mumbai                   1              0
                           New Delhi              16                6
                            Berlin                 9                3
                           Frankfurt              19                6
                            Madrid                 3                3
                            Lisbon                 6                2
                             Total                84                27

The Department did not have an effective process to ensure that FACETS was updated to reflect
the most current conditions at overseas posts. At each overseas post tested, facility surveys were
performed several years prior to our testing. The exceptions we identified related to instances
where ACBMs had been removed during facility renovations. However, FACETS was not
updated to reflect these renovations. The Department indicated that major renovations and
abatement efforts were centrally managed and would include a FACETS update upon
completion. However, minor facility renovations performed locally, such as remodeling
residential properties, were not always communicated to OBO officials and reflected in
FACETS.

Inaccurate or outdated underlying data regarding the presence of asbestos in its facilities may
limit the Department's ability to produce a reasonable asbestos remediation estimate and could
lead to an inaccurate asbestos remediation liability.



                                                14
                                                                                 Appendix A


Recommendation:

We recommend that the Department strengthen its processes for maintaining accurate data to
support its asbestos remediation estimate, including

   •     Developing procedures to ensure that facility specific data in the Facilities Environmental
         Tracking System (FACETS) is routinely updated as overseas posts perform renovations
         and asbestos abatement.
   •     Confirming FACETS data with overseas facility managers. Posts that have not had
         recent facilities surveys should be prioritized during this effort.

STATUS OF PRIOR YEAR MANAGEMENT LETTER FINDINGS

The current status of findings reported in the management letter related to the audit of the
Department’s FY 2012 financial statements is summarized in Table 3.

       Table 3. Current Status of Prior Year Management Letter Findings
                                                                     FY 2013
                  FY 2012 Management Letter Findings
                                                                      Status
        Untimely Responses to Audit Requests                                   Repeat

        Insufficient Fund Balance with Treasury Reconciliation Process         Repeat

        Inaccurate Liability Calculation for Certain Voluntary Contributions   Closed

        Inadequate Control Over Personnel Records and Actions                  Repeat
        Lack of Validation and Monitoring Controls Over Aged Unbilled          Closed
        Federal Accounts Receivable

        Inadequate Controls Over Machine Readable Visa Fee Analysis            Repeat

        Insufficient Oversight of Financial Information Provided by the U.S.   Closed
        Agency for International Development

        Inadequate Process to Identify and Measure Deferred Maintenance        Closed




                                                     15
